           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



  PERFORMANCE INDICATOR AUDIT:
  HEARINGS AND APPEALS PROCESS


     May 2007    A-15-06-16113




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                        SOCIAL SECURITY
MEMORANDUM

Date:      May 17, 2007                                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)


           We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 15 of the Social
           Security Administration’s (SSA) performance indicators established to comply with the
           Government Performance and Results Act. The attached final report presents the
           results of three of the performance indicators PwC reviewed. For the performance
           indicators included in this audit, PwC’s objectives were to:
              •   Assess the effectiveness of internal controls and test critical controls over data
                  generation, calculation, and reporting processes for the specific performance
                  indicator.
              •   Assess the overall reliability of the performance indicator’s computer processed
                  data. Data are reliable when they are complete, accurate, consistent and not
                  subject to inappropriate alteration.
              •   Test the accuracy of results presented and disclosed in SSA’s Fiscal Year 2006
                  Performance and Accountability Report.
              •   Assess if the performance indicator provides a meaningful measurement of the
                  program it measures and the achievement of its stated objective.

           This report contains the results of the audit for the following indicators:

              •   Number of SSA hearings processed.
              •   Average processing time for SSA hearings.
              •   Average processing time for hearings appeals.
Page 2 – The Commissioner


Please provide within 60 days a corrective action plan that addresses each
recommendation. If you wish to discuss the final report, please call me or have your
staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
(410) 965-9700.




                                                  Patrick P. O’Carroll, Jr.

Attachment
MEMORANDUM

Date:      May 3, 2007

To:        Inspector General

From:      PricewaterhouseCoopers, LLP

Subject:   Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)

OBJECTIVE
The Government Performance and Results Act (GPRA) 1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity. 2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance. 3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. For the performance indicators included in this audit,
our objectives were to:

           1. Assess the effectiveness of internal controls and test critical controls over the
              data generation, calculation, and reporting processes for the specific
              performance indicator.

           2. Assess the overall reliability of the performance indicator’s computer
              processed data. Data are reliable when they are complete, accurate,
              consistent and not subject to inappropriate alteration. 4

           3. Test the accuracy of results presented and disclosed in SSA’s Fiscal Year
              (FY) 2006 Performance and Accountability Report (PAR).

           4. Assess if the performance indicator provides a meaningful measurement of
              the program it measures and the achievement of its stated objective.




1
 Public Law Number 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 United States
Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).
4
 Government Accountability Office (GAO), GAO-03-273G, Assessing Reliability of Computer Processed
Data, October 2002, p. 3.

Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)                          1
BACKGROUND
We audited the following performance indicators as stated in SSA’s FY 2006 PAR:

                Performance                             FY 2006        FY 2006 Reported
                  Indicator                              Goal               Results
    Number of SSA Hearings Processed 5                  560,000             558,978
    Average Processing Time for SSA
                                                        467 days           483 days
    Hearings 6
    Average Processing Time for Hearings
                                                        242 days           203 days
    Appeals 7

SSA administers the Old-Age and Survivors Insurance (OASI), Disability Insurance (DI)
and Supplemental Security Income (SSI) programs. The OASI program, authorized by
Title II of the Social Security Act, provides income for eligible workers and for eligible
members of their families and survivors. 8 The DI program, also authorized by Title II of
the Social Security Act, provides income for eligible workers who have qualifying
disabilities and for eligible members of their families before those workers reach
retirement age. 9 The SSI program, authorized by Title XVI of the Social Security Act, is
a needs-based program providing income to aged, blind, and/or disabled individuals
with limited income and resources. 10

To determine eligibility for both Title II and Title XVI programs, applicants must first file a
claim with SSA. This is typically accomplished through an appointment in 1 of SSA's
approximately 1,300 field offices (FO), through the SSA telephone network, or online via
the Internet Social Security Benefit Application. Interviews with the applicants are
conducted by FO personnel via the telephone or in person to determine the applicants’
non-medical eligibility. When applicants are filing for benefits based on disability, basic
medical information concerning the disability, medical treatments and identification of
treating sources (e.g. a Doctor's office) is obtained.

After applicants submit claims, they receive an initial determination of benefits. If a
claimant disagrees with the initial determination, they may appeal within 60 days of




5
    SSA, PAR FY 2006 p. 75.
6
    Id. p. 78.
7
    Id. p. 78.
8
    The Social Security Act, §§ 201-234, 42 U.S.C. §§ 401-434.
9
    Id.
10
     The Social Security Act, §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.



Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)                   2
notification (plus 5 days for mailing purposes). During FY 2006, SSA’s appeals program
provided four levels of appeal for claimants: 11 12

      •   Reconsideration;
      •   Hearing;
      •   Appeals Council (AC) Review; and,
      •   Federal District Court.

Reconsideration
The first level of appeal was a reconsideration. 13 The Disability Determination Service
will make a determination based on the available information when the claimant files for
a reconsideration of an initial medical determination. All of the evidence initially
submitted by the claimant, and any new evidence, was re-evaluated during the
reconsideration process. The determination of eligibility for benefits was made, and the
claimant was notified of the reconsideration decision. Upon receiving the
reconsideration decision, the claimant could request a hearing if they disagreed with the
reconsideration decision. 14

Hearing
The second level of appeal was a hearing conducted by an Administrative Law Judge
(ALJ), in the Office of Disability Adjudication and Review (ODAR). The ALJ reviewed all
the information related to the claim and made a hearing decision/dismissal. Upon
receipt of the hearing decision, the claimant could request an AC review if they
disagreed with the hearing decision/dismissal. 15

AC Review
The AC evaluated all requests for review to determine if the requests were sufficient to
require an AC level review. If the AC accepted the request for review, the AC either
completed the review or remanded the case to an ALJ for further review. If the AC
rejected the request for review, the AC indicated agreement with the ALJ's hearing
decision. The claimant was notified of the AC's evaluation of the request for review, as
well as the results of the AC review (if the request was reviewed by the AC). If the
claimant disagreed with the AC's decision they could file in a Federal District Court. 16

11
     The Social Security Act, §§ 205 and 1631, 42 U.S.C. §§ 405 and 1383.
12
  SSA's appeal program is in the process of being modified. Refer to Social Security Regional
Commissioner's Bulletin, May 19, 2006, No: 06-02.
13
  Social Security Regional Commissioner's Bulletin, May 19, 2006, No: 06-02. In FY 2006, 10 States
removed the reconsideration phase. If a claimant disagreed with the initial determination in these States,
the claimant would appeal to the hearings level, bypassing the reconsideration phase.
14
     Program Operations Manual System (POMS): GN 03102.000 The Reconsideration Process.
15
  Hearings, Appeals and Litigation Law Manual (HALLEX), Volume I, Division 2. Administrative Law
Judge Hearings.
16
     HALLEX, Volume I, Division 3. Appeals Council Review.

Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)                              3
Federal District Court
The Federal District Court could remand the court case to SSA’s Commissioner for
further consideration, or dismiss the case. If remanded to the Commissioner, the AC,
acting on behalf of the Commissioner, could make a decision or remand the case to an
ALJ. 17

RESULTS OF REVIEW
Our assessment of the three indicators included in this report identified issues with
internal controls. For the indicators, Number of SSA Hearings Processed and Average
Processing Time for Hearings, the Case Processing and Management System (CPMS)
did not require the entry of a date of death to close a case, and weaknesses were found
in the configuration of UNIX operating systems that contains information used to
calculate the performance indicator results.

However, for the indicator, Average Processing Time for Hearings Appeals, we noted
issues with internal controls and the data reliability over the Appeals Council Automated
Processing System (ACAPS) application.

Number of SSA Hearings Processed

Indicator Background

The performance indicator measured the number of SSA hearings processed by ODAR.
If a claimant disagreed with the initial determination of benefits and reconsideration, the
claimant could submit a request for hearing through an SSA FO or the Teleservice
Center.

The disposition of benefits was determined after a claim had been through the hearings
process. The disposition was entered into CPMS, which automatically established a
disposition date for the claim.

The performance indicator was calculated from the CPMS Management Information
(CPMS MI) system in the Monthly Activity Report (MAR) and Caseload Analysis Report
(CAR). SSA personnel used the number of dispositions included in the CAR to
determine the number of SSA hearings processed within a reporting period.




17
     HALLEX, Volume I, Division 2. Administrative Law Judge Hearings.

Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)               4
Performance Indicator Calculation

                                                      Sum of the 12 months (October 1,
                                                      2005 through September 29, 2006)
         Number of SSA Hearings
                                                =     of dispositions entered into CPMS
              Processed
                                                      during the reporting period.


Findings

Internal Controls and Data Reliability

During the prior audit, 18 we found it was not necessary to enter a date of death in CPMS
to close a case based on death. This created the potential for open cases to be
improperly classified as processed due to death in CPMS. As a result, the number of
processed hearings could have been overstated in the PAR. Per SSA management,
this edit deficiency is scheduled to be addressed in the June 2007 release of CPMS.

Finally, our review of the two CPMS UNIX systems identified nine security and
compliance issues. This review was conducted on the SSA developed UNIX Risk
Model configuration standard, National Institute of Standards and Technology (NIST)
guidelines 19 and the Defense Information Security Agency (DISA) Security Technical
Implementation Guides (STIGS). 20

We were able to recalculate the interim and year-end indicator results and found them
to be substantially accurate. 21 Despite these internal control weaknesses, we were able
to determine that the data used to calculate this performance indicator was reliable.

We did not identify any significant exceptions related to the meaningfulness of this
indicator or disclosure of the information related to this indicator contained in the PAR.

Average Processing Time for SSA Hearings

Indicator Background

The performance indicator measured the average processing time for SSA hearings
processed by ODAR. As discussed earlier, if a claimant disagreed with the initial


18
     Performance Indicator Audit: Hearings and Appeals Process (January 2006 A-15-05-15113).
19
     The NIST guidelines 800-18 Section 6.MA.2 were used to perform the review.
20
     The DISA STIGS Security Checklist version 4R4, Section 3.8 was used to perform the review.
21
  The PwC year end recalculation of the performance indicator Number of SSA Hearings Processed was
552,742 records. This number differs by approximately 1 percent from the actual calculation of 558,978
records reported in the FY 06 PAR. For the purposes of this audit, this difference is deemed immaterial.

Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)                            5
determination of benefits and the reconsideration, he/she could submit a request for
hearing through an SSA FO or the Teleservice Center.

If the claimant requested a hearing through an SSA FO, the request for hearing was
entered by a claims representative using the Modernized Claims System (MCS) or the
Modernized Supplemental Security Income Claims Systems (MSSICS). After the
request for hearing was entered, case data was transferred from MCS or MSSICS into
CPMS. This process is known as the auto-establish process. The date the case is
auto-established into CPMS is the case "start date." If the claimant requested a hearing
through the Teleservice Center, the HA-501 form, Request for Hearing by




Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)              6
Administrative Law Judge, was completed and submitted by the claimant to SSA. In
this instance, the case "start date" would be derived from the HA-501 form.

The disposition of benefits was determined after a claim has been through the hearings
process. The disposition was entered into CPMS, which automatically established a
disposition date for the claim.

The performance indicator was calculated from data contained in the MAR and CAR.
The CAR displays the average processing time for SSA hearings as noted on the next
page.

Performance Indicator Calculation

                                               Sum of the 12 months (October 1,
                                               2005 through September 29, 2006)
Total Processing Time for Hearings        =
                                               of the hearing offices’ processing
                                               time.

                                               Sum of the 12 months (October 1,
  Total Dispositions for Hearings         =    2005 through September 29, 2006)
                                               of dispositions for hearings.

                                                     Total Processing Time for
 Average Processing Time for SSA                       Hearings in FY 2006
                                          =
            Hearings                                   Total Dispositions for
                                                       Hearings in FY 2006

Processing time was defined as the number of days from the "hearing request date (or
reopened date or remand date)" to the "disposition date."

Findings

Internal Controls and Data Reliability

Our findings related to this indicator are identical to those noted under the indicator
Number of SSA Hearings Processed. Please refer to page 5.

We were able to recalculate the interim and year-end indicator results and found them
to be accurate. Despite these internal control weaknesses noted on page 5, we were
able to determine that the data used to calculate this performance indicator was reliable.

We did not identify any significant exceptions related to the meaningfulness of this
indicator or disclosure of the information related to this indicator contained in the PAR.




Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)                 7
Average Processing Time for Hearings Appeals

Indicator Background

The hearings appeals process begins when the application for benefits has been denied
at the initial, reconsideration, and hearing levels. The claimant can file for AC review by
using Form HA-520-U5, Request for Review of Hearing Decision/Order. Completed
HA-520-U5 forms are submitted to an SSA FO. If legal counsel is submitting the appeal
on behalf of the claimant, a letter can be submitted to SSA indicating the request for
appeal. The start date for the hearing appeal was derived either from the date indicated
on the HA-520-U5 form or the date indicated on the appeals request letter. This date
was entered into ACAPS as the start date for the hearing appeal. Processing time
began when the hearing appeal was entered into ACAPS.

Once an appeal was received, applicable case data was transferred from CPMS to
ACAPS. If the case could not be found in CPMS, the case data was entered manually
into ACAPS. An analyst prepared and entered an action document that summarized all
the relevant case information and a decision recommendation into ACAPS. The
decision recommendation and action document were reviewed by the Administrative
Appeals Judge (AAJ). If the AAJ did not accept the recommendation or action
document, the case was sent back to the analyst or remanded to an ALJ for further
review and research. If the AAJ agreed with the action document and recommendation,
a denial, dismissal or favorable decision was entered as the final disposition into
ACAPS. Processing time ended when the disposition was entered into ACAPS. 22
The performance indicator results were calculated from the Monthly Office of Appellate
Operations (OAO) - Wide Processing Time Report. This report contained the total
number of dispositions issued during a reporting period and the average processing
time for issuing dispositions. Each month, the number of dispositions issued and
average processing time data from the OAO - Wide Processing Time Report was
entered into the FY Average Processing Time Excel file which calculated the
performance indicator results.




22
  The disposition is entered the day the decision is date stamped, released, and mailed. SSA,
PAR FY 2006 p. 79.

Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)                       8
Performance Indicator Calculation

                               Total number of calendar days from the start date 23 to the end
Average Monthly                   date 24 for each disposition issued in the reporting month
                =
Processing Time                                The number of dispositions issued
                                                  within the reporting month

   Total Monthly                                                     The number of dispositions
                                   The average monthly
 Processing Time =                                              X    issued within the reporting
                                     processing time
of Hearing Appeals                                                             month



                                          The sum of total monthly processing time
 Average Number                               of hearing appeals for FY 2006
of Days Needed to
                           =
Process Hearings
    Appeals 25                                    The number of dispositions
                                                     issued for FY 2006


Findings

Internal Controls and Data Reliability

During a prior audit, we identified and reported significant deficiencies for ACAPS. PwC
was informed by SSA management during this audit that these deficiencies had not
been corrected. The following deficiencies had not been addressed by SSA
management:

      1. User ID and password settings were inadequate. Passwords were only required
         to be three characters in length, were allowed to be the same as the user ID, and
         user IDs and passwords were stored in a nonencrypted file within the
         applications. Additionally, there was no user ID lockout after invalid attempts to
         sign-on to the applications. This could have allowed unauthorized users to
         repeatedly attempt to log into the applications. Security incident reports and
         error logs were not generated by the applications and therefore could not be
         monitored by management. As a result, security violations and data

23
  The start date was derived from the request for review HA-520-U5 form or letter used to request the
review.
24
     The end date was captured in ACAPS when the final disposition was entered into the system.
25
  Due to system limitations, ACAPS cannot automatically calculate the year-end performance indicator
result. The year-end performance indicator result was manually calculated using the following system-
generated reports: Average Monthly Processing Time and number of dispositions issued within each
month.

Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)                               9
   2. errors/irregularities may have occurred without management detection or
      investigation.
   3. We found that duplicate cases could be created in ACAPS if all identifying fields
      were not present when inputting the case. This could create duplicate counts of
      AC reviews.

During this year's audit we received an update from SSA management on the current
status of the ACAPS findings from the prior audit. SSA's management provided the
following response to the current status of the findings:

       “Appeals Council Automated Processing System (ACAPS) is an old
       stand-alone system that will eventually be replaced. In order to make
       any changes to this system, SSA would have to redirect systems
       resources that are being used for critical Case Processing and
       Management System (CPMS) enhancements. This would have a
       negative impact on the SSA hearings workload, so we are only
       considering operations essential changes to ACAPS at this time.”

We were able to recalculate the interim and year-end indicator results and found them
to be accurate. However, based on the internal control findings noted before, we could
not consider the data to be reliable.

We did not identify any significant exceptions related to the meaningfulness of this
indicator or disclosure of the information related to this indicator contained in the PAR.

General Findings

We previously identified issues related to the general controls at the ODAR office space
in Falls Church, Virginia. These issues were reported in the OIG report, Performance
Indicator Audit: Hearings and Appeals Process (A-15-05-15113), issued in
January 2006.

During our FY 2006 general controls testing, we once again found that visitors to the
ODAR space were not required to sign-in upon entry. In addition, there were no
security guards at the entrance of the ODAR space. Management stated that security
guards are in place throughout the facility, however during the course of fieldwork we
did not note the presence of any guards. It should be noted that the ODAR space is
located in a multi-tenant, privately owned building, and ODAR management does not
have complete control over the physical security of the building. In addition, to gain
access to the ODAR space a key card was required.

We recommended in the January 2006 report that ODAR “Ensure all visitors were
required to sign in upon entry to restrict visitor access to the OHA buildings.” SSA's
management provided the following response to these findings and recommendation in
the January 2006 audit report:



Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)               10
          “We agree. The ODAR Headquarters building security could be
          improved. ODAR is working in conjunction with the Department of
          Justice to provide security enhancements at the ODAR facility in Falls
          Church, Virginia to bring the building in compliance with Level IV federal
          standards.” 26

RECOMMENDATIONS
Specific to performance indicators, Number of SSA Hearings Processed and Average
Processing Time for SSA Hearings we recommend SSA management:

      1. Enhance application input edits within CPMS, including controls to prevent users
         from disposing of cases due to death without entering a date of death.
      2. Ensure that the CPMS UNIX systems are configured to be in compliance with
         the SSA UNIX Risk Model and Government guidelines from NIST and DISA.

Specific to the performance indicator, Average Processing Time for Hearings Appeals
we recommend 27 SSA management:

      3. Strengthen password parameters in ACAPS to require encryption of the
         passwords, lockout of users accounts after a set number of failed log in
         attempts, the use of alphanumeric passwords and passwords with a minimum of
         eight characters.
      4. Strengthen the ACAPS application to include security incident reports for
         tracking inappropriate access attempts to ACAPS.
      5. Generate error logs for ACAPS activities to ensure timely identification and
         follow-up of data entry errors.
      6. Require ACAPS users to enter all identifying fields to prevent duplicate cases.

AGENCY COMMENTS

SSA agreed with recommendation number 1 and partially agreed with recommendation
number 2. SSA stated that it disagreed with recommendation numbers 3, 4, 5, and 6;
however, the actions planned by SSA show agreement with the intent of these
recommendations.




26
     Performance Indicator Audit: Hearings and Appeals Process (A-15-05-15113), January 2006, p. E-2.
27
  If SSA management replaces the ACAPS system, the new system should include the
recommendations noted for ACAPS.

Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)                           11
PWC RESPONSE

In response to recommendation 2, we believe the approach that SSA has taken to
address the risk presented by this finding is appropriate. In addition, we have modified
the footnote on page 6 to exclude NIST 5153.

In regard to recommendation numbers 3, 4, 5, and 6, PwC continues to recommend that
SSA strengthen password parameters, include and monitor a security incident report,
generate error logs, and require users to enter all fields to prevent duplicate cases since
the ACAPS data is used for calculation of the indicator results. However, in lieu of
making these changes to ACAPS, SSA should ensure that the ACAPS replacement
system is configured with the appropriate security controls. We support SSA’s plan to
replace the ACAPS system and OIG plans to verify implementation as part of its on-
going work. We would not expect SSA to make these changes to a system that is being
replaced, but would expect the recommendations to be included in the new system, as
stated in footnote 27.




Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)               12
                                           Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Agency Comments




Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)
                                                                            Appendix A
Acronyms
   AAJ         Administrative Appeals Judge
   AC          Appeals Council
   ACAPS       Appeals Council Automated Processing System
   ALJ         Administrative Law Judge
   CAR         Caseload Analysis Report
   CIS         Case Intake Specialist
   CPMS        Case Processing and Management System
   CPMS MI     Case Processing and Management System Management Information
   DI          Disability Insurance
   DISA        Defense Information Security Agency
   EDCS        Electronic Disability Case System
   FO          Field Office
   FY          Fiscal Year
   GAO         Government Accountability Office
   GPRA        Government Performance and Results Act
   HALLEX      Hearings, Appeals and Litigation Law Manual
   MAR         Monthly Activity Report
   MCS         Modernized Claims System
   MSSICS      Modernized Supplemental Security Income Claims Systems
   NIST        National Institutes of Standard and Technology
   OAO         Office of Appellate Operations
   OASI        Old-Age and Survivors Insurance
   ODAR        Office of Disability Adjudication and Review
   OSM         Office of Strategic Management
   OTR         On The Record
   PAR         Performance and Accountability Report
   RH          Request for Hearing
   SCT         Senior Case Technician
   SSA         Social Security Administration
   SSI         Supplemental Security Income
   SSPP        Standardized Security Profile Project
   STIGS       Security Technical Implementation Guides
   U.S.C.      United States Code




Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)
                                                                            Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and inquiry of SSA management. We also requested SSA to provide
various documents regarding the specific programs being measured as well as the
specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following:

   •   Reviewed prior SSA, Government Accountability Office, and other reports related
       to SSA GPRA performance and related information systems.
   •   Reviewed applicable laws, regulations, and SSA policy.
   •   Met with the appropriate SSA personnel to confirm our understanding of each
       individual performance indicator.
   •   Flowcharted the processes. (See Appendix C).
   •   Tested key controls related to manual or basic computerized processes (e.g.,
       spreadsheets, databases, etc.).
   •   Conducted and evaluated tests of the automated and manual controls within and
       surrounding each of the critical applications to determine whether the tested
       controls were adequate to provide and maintain reliable data to be used when
       measuring the specific indicator.
   •   Identified attributes, rules, and assumptions for each defined data element or
       source document.
   •   Recalculated the metric or algorithm of key performance indicators to ensure
       mathematical accuracy.
   •   For those indicators with results that SSA determined using computerized data,
       we assessed the completeness and accuracy of that data to determine the data's
       reliability as it pertains to the objectives of the audit.
   •   Performed a follow-up general computer control review as it relates to the Office
       of Disability Adjudication and Review.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes within SSA and the existing measurement systems. Our
understanding of the Agency’s mission, goals, objectives, and processes were used to
determine whether the performance indicators being used appear to be valid and
appropriate given our understanding of SSA’s mission, goals, objectives and processes.




Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)             B-1
We followed all performance audit standards in accordance with generally accepted
government auditing standards. In addition to the steps previously noted, we
specifically performed the following to test the indicators included in this report:

NUMBER OF SSA HEARINGS PROCESSED

   •   Inspected 60 HA-501 forms, Request for Hearing by Administrative Law Judge,
       to ensure the start date was included in the Case Processing and Management
       System (CPMS) completely and accurately.
   •   Inspected 60 HA-5051-U3 forms, Transmittal of Decision or Dismissal by
       Administrative Law Judge, to ensure the mail date was included in CPMS
       completely and accurately.
   •   Re-performed the calculation of the number of hearings processed and average
       processing time.
   •   Determined the adequacy of the programming logic used by SSA to calculate the
       Number of SSA Hearings Processed and the Average Processing Time for SSA
       Hearings.
   •   Obtained the status of prior year issues.

AVERAGE PROCESSING TIME FOR SSA HEARINGS
The same tests were performed for this indicator as were for the Number of SSA
Hearings Processed.

AVERAGE PROCESSING TIME FOR HEARINGS APPEALS

   •   Re-performed the calculation of the Average Processing Time for Hearings
       Appeals.
   •   Observed Appeals Council Automated Processing System code for
       reasonableness.
   •   Obtained the status of prior year issues.




Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)              B-2
                                                                                                                      Appendix C

Flowchart of Number of SSA Hearings Processed
and Average Processing Time for SSA Hearings
                                                                                                        Prototype States (10 states)
 Initial decision received by claimant
     for Title II or Title XVI benefits


                                                                                                               Initial decision
 Claimant asks for redetermination                                                                               received by
      of SSA’s initial decision                                                                                    claimant




          Did SSA agree with                     SSA reverses their
                                          No                                   End
         their initial decision?                   initial decision



                  Yes

      Claimant receives SSA’s
      redetermination decision




             Request for
                                    No            End
            hearing (RH)?



                  Yes

                                                                        The claimant is
                                               Claimant requests       asked about their           Should the Teleservice
           RH filed through
                                     No            hearing via          appeal over the          Center send the claimant a
           any SSA office?
                                               Teleservice Center        phone by the             HA-501 form to complete
                                                                      Teleservice Center                and submit?

                  Yes

               Claimant
             receives HA-                                                                                                            No
            501 Form from
                office                                                                Yes


              Claimant                            The Teleservice                                     An admin message is sent to the
          completes HA-501                        Center sends the                                    Field Office (FO) to have the FO
           Form and sends                         claimant the HA-                                     contact the claimant to help in
              RH to FO                                501 Form                                             filing the HA-501 form.


       The start day is derived
     from the RH HA-501 Form
         (HALLEX I-2-0-50).




        FO forwards the Case File (CF) to the Hearing Office (HO) for processing if the appeal was filed within the appeals period



                                                                      A




Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)                                                                 C-1
                                                         A




  Claim is auto established from Modernized Claims System (MCS) / Modernized Supplemental Security Income
   Claims System (MSSICS) using the Electronic Disability Case System (EDCS) or the Case Intake Specialist
                          (CIS) / Senior Case Technician (SCT) enters claim into CPMS




        Clerk reviews
          claim and
      determines if the
     claim is eligible for
       early screening



       Management
      assigns claim to
     an Administrative
     Law Judge (ALJ)




                                      No                   Dismissed
                                                                                       Written decision/
     Will ALJ conduct                                                                  dismissal entered
          hearing?                                                                      into CPMS and
                                                                                        sent to claimant
                                                      ALJ determines to
                                                       pay claim on the
                                      No                record (OTR)
                                                      (Expedite without
             Yes                                           hearing)



      Hearing is held
       and case is
        explained




                                Support staff enters                 Clerk enters
                                disposition data into                                        Decision letter and a copy of
        ALJ issues a                                               disposition date
                              CPMS for SSA cases. The                                        the ALJ’s decision is sent to
          decision                                                and mail date into
                               ALJ will verify favorable                                               claimant
                                                                        CPMS
                                decisions in CPMS.




   Monthly Activity Report
     (MAR) / Caseload                 MAR / CAR is                                            OSM adds data to
  Analysis Report (CAR) is                                           CAR data is
                                      posted to the                                           the tracking report
    produced by CPMS                                              forwarded to OSM
                                        Intranet                                                (Falls Church)




                                 Performance Measure Calculation:
                     Calendar Days from Hearing Request to Disposition Mail Date                                                  Reporting of
                                    Total Number of Dispositions                                                                  performance
                                                                                                  Performance
                                                                                                                             indicators Number of
                                                                                                 owner review of
                                                                                                                                 SSA Hearings
                                                                                                  the indicator
                                                                                                                                Processed and
                                                                                                     results
                                                                                                                              Average Processing
                                                                                                                               Time for Hearings
                                 Performance Measure Calculation:
                              Total of the number of hearings processed




Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)                                                                       C-2
Number of SSA Hearings Processed and Average Processing Time for SSA
Hearings

•   Initial decision of benefits is received by claimant.
•   The claimant asks for redetermination of SSA’s initial decision.
              o If SSA disagrees with their initial decision, SSA will reverse their initial
                  decision and the process ends.
              o If SSA agrees with their initial decision, the redetermination decision is
                  sent to the claimant.
•   After the redetermination decision is received by the claimant they may file a Request
    for Hearing (RH). If they do not, the process ends.
•   The request for hearing can be filed through any SSA office or the form can be sent to
    the claimant by mail.
              o The claimant requests a hearing via the Teleservice Center.
              o The claimant is asked about their appeal over the phone by the
                  Teleservice Center.
              o If the Teleservice Center believes that the claimant should be assisted in
                  completing the HA-501 form, an administrative message is sent to the FO
                  to have the FO contact the claimant to help in filing the HA-501 form.
              o If the Teleservice Center believes that the claimant can file the HA-501
                  form themselves the HA-501 form is mailed to the claimant.
                       The claimant completes the HA-501 form and sends the RH to the
                         FO.
•   The start date is established by using the RH in accordance with HALLEX I-20-0-50.
•   The FO forwards the Case File to the Hearing Office for processing if the appeal was
    filed within the appeals period.
•   The claim is auto established from MCS/MSSICS using Electronic Disability Case
    System (EDCS) or the Case Intake Specialist (CIS) / Senior Case Technician (SCT)
    enters claim into CPMS.
•   The clerk reviews the claim and determines if the claim is eligible for early screening.
•   Management assigns the claim to an ALJ (Administrative Law Judge).
•   The ALJ decides whether to conduct a hearing or not.
              o If the ALJ does not conduct a hearing, the case may be dismissed or the
                  ALJ can determine to pay the claim on the record (OTR - to expedite
                  without a hearing).
              o The written decision/dismissal is then sent to the claimant.
•   If the ALJ decides to hear the case, the hearing is held and the case is explained.

Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)                C-3
•   The ALJ issues a decision.
•   Support staff enters disposition data into CPMS for SSA cases.
•   The ALJ will verify favorable decisions in CPMS.
•   The clerk enters the disposition date and mail date of the case into CPMS.
•   A decision letter and a copy of the ALJ's decision are sent to the claimant.
•   The Monthly Activity Report (MAR) / Caseload Analysis Report (CAR) are produced
    by CPMS.
•   MAR/CAR are posted to the SSA Intranet.
•   CAR data is forwarded to the Office of Strategic Management (OSM).
•   OSM adds data from the CAR to the tracking report.
•   Performance Measure Calculation: Total number of SSA hearings processed.
•   Performance Measure Calculation: Calendar days from Hearing Request to
    Disposition Mail Date for all dispositions issued / Total Number of Dispositions issued.
•   The performance owner reviews the indicator results.
•   The reporting of the performance indicators Number of SSA Hearings Processed and
    Average Processing Time for SSA Hearings.




Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)                C-4
Flowchart of Average Processing Time for Hearings
Appeals
  Application for benefits has been
 denied at the initial, reconsideration,
         and hearing levels




   Claimant has received denial or
   dismissal of claim from the ALJ
       in the hearings process




          Claimant requests
           Appeals Council             No   End
            (AC) review?



                  Yes

   Claimant sends the HA-520-U5
    or letter to the AC requesting
       review (The start date is
        derived from this form /
        postmark of the letter)



         HA-520-U5 or letter
        requesting AC review




           Appeals Council
           receives request



                  Yes


            Support staff
           enters data from
           RR into ACAPS




               ACAPS is
          uploaded with data
            from CPMS or
           manually entered




                   A




Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)   C-5
                 A




                                         Pre-adjudicative actions may involve:
                                         a missing folder/tape must be obtained;
         Does support staff
                                         duplicates of hearing tapes or exhibits of record are sent to the claimant/
          need to take pre-      Yes
                                         representative for review;
        adjudicative actions?
                                         representative is given extension of time to submit additional evidence;
                                         development of “good cause” for untimely filing of appeal is undertaken.


                 No


                                                                            Analyst prepares
         Case is assigned                      Analyst reviews
                                                                           analyst and action
          to an analyst                             case
                                                                               document




           Analyst submits
          recommendation
         thru branch control
             (to Appeals
               Council)




         Recommendation
           is entered into
         ACAPS by support               The recommendation and/or
                staff                  action document not accepted
                                       will be sent back to the analyst.




       Recommendation and
         action document is
        reviewed by an AAJ




                                                     No

       Does the AAJ accept the
     recommendation and action
             document?



                Yes


          The AAJ signs the
        recommendation and
       action document if they
               accept




                 B




Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)                                              C-6
                   B




               Does the                               The second AAJ is                 Recommendation and
                                                                                                                                Does the AAJ accept
          action require the                          assigned within the                action document is
                                          Yes                                                                                    the recommendation
         concurrence of two                           branch based on an               reviewed by the second
                                                                                                                                and action document?
                AAJs?                                  assignment chart                          AAJ




                  No                                                        Yes                                                                                 No




                                                               Do both AAJs                           Both the initial AAJ              The second AAJ
           AAJ(s) make(s)
                                            Yes                 agree with                             and second AAJ                   sends a memo to
           final disposition
                                                                eachother?                             discuss the case                   the initial AAJ




                                                The case is assigned to a third AAJ (Deputy
                                                Chair of the AC or his designee) – The two
                                                 AAJs who agree on the recommendation
                                                become the A and B members and sign the
                                                    recommendation/action document




     Interim actions are        No, interim                   Was a denial,                 No, case remanded                  Administrative Law Judge
    entered into ACAPS          action issued             dismissal or favorable            to an Administrative                 at the Hearing Office
       and processed                                        decision issued??               Law Judge



                                          Yes




       Support staff enters data
                                                      Number for                   Performance
      (disposition type/date) into                                                                            Reporting of performance indicator Average
                                                     performance                  owner review of
          ACAPS and issues                                                                                       Number of Days Needed to Process
                                                      measure is                   the indicator
         disposition (releases                                                                                             Hearing Appeals
                                                      generated                       results
           action document)




                                                                                                    Files are sent to a SSA
                                                                         Case denied or                                                   Claimant can file a
              Favorable                            What type of                                      Mega-Site for holding
                                     No                                  unfavorable                                                       suit in a federal
              decision?                            verdict was                                      pending a possible civil
                                                                         decision                                                            district court
                                                    issued?                                                  action


                 Yes


                                                                                                                                            Cases that are
 Case is released to a payment center
                                                                                                                                          dismissed can not
  of headquarters or SSA Field Office                                         Case Dismissed                                                be appealed to
              (SSI cases)
                                                                                                                                                court




Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)                                                                                            C-7
Average Processing Time for Hearings Appeals

•   The process starts by the application for benefits being denied at the initial,
    reconsideration, and hearing levels.
•   The claimant has received denial or dismissal of claim from the ALJ in the hearings
    process.
•   If the claimant does not request Appeals Council review the process ends.
•   If the claimant requests Appeals Council review, the request is made through the HA-
    520-U5 form or a letter can be submitted to SSA.
•   The start day is derived from the HA-520-U5 form or the postmark of the letter is
    used. Refer to HALLEX for instructions.
•   The claimant sends the request to the Appeals Council.
•   The Appeals Council receives the request.
•   Support staff enters data from the request for review into ACAPS.
•   Data is uploaded from CPMS or manually entered into ACAPS.
•   Support staff takes pre-adjudicative actions, if applicable.
              o Pre-adjudicative actions involve: a missing folder/tape must be obtained;
                 duplicates of hearing tapes or exhibits of record are sent to the
                 claimant/representative for review, representative is given extension of
                 time to submit additional evidence; development of "good cause" for
                 untimely filling of appeals is undertaken.
•   The case is assigned to an analyst.
•   The analyst reviews case.
•   The analyst prepares a recommendation and action document.
•   The recommendation is entered into ACAPS by support staff.
•   The analyst submits the recommendation thru batch control to the Appeals Council.
•   The recommendation and action document is reviewed by an Administrative Appeals
    Judge (AAJ).
•   The AAJ makes a decision to accept the recommendation and action document. If
    the AAJ does not accept the recommendation and/or action document, the case is
    sent back to the analyst to review the case.
•   The AAJ signs the recommendation and action document if they accept.
•   If the action document requires the concurrence of two AAJs, the second AAJ is
    assigned within the branch based on an assignment chart.
              o The recommendation and action document is reviewed by the second
                 AAJ.

Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)             C-8
              o If the second AAJ agrees with the first AAJ, the second AAJ will make a
                 final disposition.
              o If the second AAJ does not agree with the first's decision, both the initial
                 and second AAJs will discuss the case. If they still do not agree, the case
                 is assigned to a third AAJ (Deputy Chair of the Appeals Council or his/her
                 designee). The two AAJs who agree on the recommendation become the
                 A and B members of the case and sign the recommendation document.
•   AAJ(s) make(s) final disposition.
•   If an interim action was issued, the interim actions are entered into ACAPS and
    processed.
•   If the case was remanded to an Administrative Law Judge (ALJ) the case is
    transferred to an ALJ at the Hearing Office.
•   If the case was a denial, dismissal or favorable decision, the support staff enters the
    data (disposition type/date) into ACAPS and issues a disposition (releases action
    document).
              o The performance measure, "Reduce the Average Number of Days
                 Needed to Process Hearings Appeals," is generated from this data.
              o The performance owner reviews the indicator results.
              o Reporting of the performance indicator "Reduce the Average Number of
                 Days Needed to Process Hearings Appeals" is performed and submitted
                 to OSM.
•   If the disposition was a favorable decision, the case is released to a payment center
    or SSA Field Office (SSI cases).
•   If the disposition was not a favorable decision, the type of verdict decides the next
    action.
              o If the case was dismissed, it cannot be appealed to court.
              o If the case was denied or an unfavorable decision was issued, the files are
                 sent to an SSA Mega-Site for holding, pending a possible civil action. In
                 this circumstance, the claimant can file a suit in Federal district court.




Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)                C-9
                                                                            Appendix D

Agency Comments




Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)
                                         SOCIAL SECURITY

MEMORANDUM

Date:      May 2, 2007                                                           Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/

Subject:   Office of the Inspector General (OIG) Draft Report, "Performance Indicator Audit: Hearings and
           Appeals Process" (A-15-06-16113)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the recommendations
           are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




           Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)                   D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “PERFORMANCE INDICATOR AUDIT: HEARINGS AND APPEALS
PROCESS” (A-15-06-16113)

Thank you for the opportunity to review and comment on this draft report. Our responses to the
specific recommendations are provided below.

Recommendation 1

Enhance application input edits within the Case Processing and Management System (CPMS),
including controls to prevent users from disposing of cases due to death without entering a date
of death.

Comment

We agree. The June 2007 release of CPMS will require the user to enter the claimant’s date of
death when the case disposition indicates the claimant’s death.

Recommendation 2

Ensure that the CPMS UNIX systems are configured to be in compliance with the Social
Security Administration (SSA) UNIX Risk Model and Government guidelines from the National
Institutes of Standard and Technology (NIST) and the Defense Information Security Agency
(DISA).

Comment

We agree with ensuring our compliance with the SSA UNIX Risk Model. SSA has a functional
workgroup that meets monthly to address various issues related to UNIX configuration and
security, which includes ensuring that systems are configured based on the UNIX Risk Model.

We disagree with the inclusion of NIST guidelines 5153 Section 3.2.2 in the footnote on page 6
of this report. NIST has a note in the 5153 document that states: “THIS DOCUMENT HAS
BEEN SUPERSEDED BY THE FEDERAL CRITERIA.” NIST’s Guide for Developing
Security Plans for Federal Information Systems, publication 800-18, is more current and,
therefore, more relevant to this audit. Also, while the DISA Security Technical Implementation
Guide provides a checklist that minimizes the security risks associated with computer hardware
or software systems, Federal law does not require SSA to comply with this guide as this
recommendation implies.

Recommendation 3

Strengthen password parameters in the Appeals Council Automated Processing System
(ACAPS) to require encryption of the passwords, lockout of user’s accounts after a set number of
failed log in attempts, the use of alphanumeric passwords with a minimum of eight characters.



Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)                     D-2
Comment

We disagree. ACAPS was implemented in 1995. Since that time, the system has undergone
several upgrades. Technologically, ACAPS is now outdated and recent enhancements to the
system have been limited to emergency requirements, pending a full replacement of the system.
The first Appeals Council (AC) system release to replace ACAPS is scheduled for January 2008.
Once fully implemented, the architecture of the new AC system will support the above
recommendation and ACAPS will be retired.

In addition, the Office of Management and Budget Circular A-11, section 230.2e, states
“Performance data need not be perfect to be reliable, particularly if the cost and effort to secure
the best performance data will exceed the value of any data so obtained.” We believe this
directive applies to this situation.

Recommendation 4

Strengthen the ACAPS application to include security incident reports for tracking inappropriate
access attempts to ACAPS.

Comment

We disagree. See our response to recommendation 3.

Recommendation 5

Generate error logs for ACAPS activities to ensure timely identification and follow-up of data
entry errors.

Comment

We disagree. See our response to recommendation 3.

Recommendation 6

Require ACAPS users to enter all identifying fields to prevent duplicate cases.

Comment

We disagree. See our response to recommendation 3.




Performance Indicator Audit: Hearings and Appeals Process (A-15-06-16113)                        D-3
                       Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                     Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                     Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.


                                Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
